CERTIFICATE OF WORD COUNT
No.21-52
Emmanuel Edokobi,
Petitioner,
v.
Toyota Motor Credit Corporation; SunTrust Bank,
Respondents.

I am a pro se party who is Petitioner in this matter.
As required by Supreme Court Rule 33.1(h), I certify that the EMMANUEL EDOKOBI REPLY
BRIEF contains 3000 words, including the parts of the brief that are required or exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

edowtartael (-Woe&
Emmanuel Edokobi
Petitioner, Pro Se
2005 Stratton Drive
Potomac, MD 20854
(301) 793-2882
eedokobi@yahoo.com

August 27, 2021

